APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Order and Judgment in the United
States Court of Appeals for the Tenth
Circuit
(October 5, 2020) . . . . . . . . . . . . . . App. 1
Appendix B Judgment in a Criminal Case in the
United States District Court for the
District of New Mexico
(July 2, 2019) . . . . . . . . . . . . . . . App. 29
Appendix C Oral Ruling Denying Rule 29 Motion
(December 4, 2018) . . . . . . . . . . . App. 41
Appendix D Oral Rule Supplementing Order
Barring Petitioner’s DNA Expert
Testimony
(December 4, 2018) . . . . . . . . . . . App. 45
Appendix E United States’ Notice of Intent to
Introduce Expert Witness Testimony
Pertaining to Serology and DNA
Evidence Pursuant to Rules 702, 703
and 705 in the United States District
Court for the District of New Mexico
(November 19, 2018) . . . . . . . . . . App. 52

ii
Appendix F Defendant Response to the United
States’ Notice to Introduce Expert
Witness Testimony Pertaining to
Serology and DNA Evidence Pursuant
to Rule 702, 703 and 705 in the United
States District Court for the District of
New Mexico
(November 28, 2018) . . . . . . . . . . App. 57
Appendix G Defendant’s Notice of Intent to
Introduce Rebuttal Expert Testimony
Pertaining to Serology and DNA
Evidence Pursuant to Rules 702, 703
and 705 in the United States District
Court for the District of New Mexico
(December 2, 2018) . . . . . . . . . . . App. 62
Appendix H Defendant’s Renewed Notice of Intent
to Introduce Rebuttal Expert
Testimony Pertaining to Serology and
DNA Evidence Pursuant to Rules 702,
703 and 705 in the United States
District Court for the District of New
Mexico
(December 4, 2018) . . . . . . . . . . . App. 67
Appendix I Summary: Motion of Intent for
Defense Expert to Testify: U.S.A. v.
Francisco Palillero
(December 4, 2018) . . . . . . . . . . . App. 73

App. 1

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
No. 19-2111
(D.C. No. 2:18-CR-02311-KG-1)
(D. New Mexico)
[Filed: October 5, 2020]
_______________________________________
UNITED STATES OF AMERICA,
)
)
Plaintiff - Appellee,
)
)
v.
)
)
FRANCISCO JAVIER PALILLERO,
)
)
Defendant - Appellant. )
_______________________________________)
ORDER AND JUDGMENT*
Before PHILLIPS, BALDOCK, and McHUGH,
Circuit Judges.
A jury convicted Francisco Javier Palillero of sexual
abuse, and the district court sentenced him to 121
*

This order and judgment is not binding precedent, except under
the doctrines of law of the case, res judicata, and collateral
estoppel. It may be cited, however, for its persuasive value
consistent with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

App. 2
months’ imprisonment. This is Mr. Palillero’s direct
appeal from his conviction and sentence. He raises four
arguments: (1) insufficient evidence; (2) improper
exclusion of a defense expert; (3) imposition of a
substantively unreasonable sentence; and
(4) cumulative error. We affirm.
The evidence at trial was sufficient for a reasonable
jury to find Mr. Palillero guilty of sexual abuse. The
district court did not abuse its discretion when it
excluded the testimony of Mr. Palillero’s DNA expert as
a sanction for late and inadequate disclosure. The
district court’s sentence was not unreasonable. And,
because Mr. Palillero has not shown error, he cannot
prevail on his claim of cumulative error.
I. BACKGROUND
A. Factual History
We review “the evidence and all reasonable
inferences drawn therefrom in the light most favorable
to the jury’s verdict.” United States v. Poe, 556 F.3d
1113, 1124 (10th Cir. 2009).
1. Criminal Conduct
On April 27, 2018, Ashley Napier1 and her fiancé,
Adam Pratschler, attended a backyard barbeque on
Holloman Air Force Base hosted by their neighbors,
Shante and Francisco Palillero. Ms. Napier and Mr.
Pratschler had attended prior social events at the
Palilleros’ house; Ms. Napier considered them “friends.”
1

Ashley Napier is now Ashley Pratschler. We refer to her using
her last name at the time of the events in question: Napier.

App. 3
App., Vol. IV at 201. Yet, Ms. Napier had never spent
any time alone with Mr. Palillero. Another neighbor,
Lieutenant Douglas Cole, also attended the barbeque.2
Around 10:00 p.m., Ms. Napier walked home with
Mr. Pratschler. Ms. Napier took her two dogs to bed
with her and closed the bedroom door. She then fell
asleep sometime before 11:00 p.m. Mr. Pratschler
returned to the barbeque.
Sometime later, Lieutenant Cole walked Mr.
Pratschler home. Mr. Palillero accompanied them.
Lieutenant Cole and Mr. Pratschler talked in the living
room for thirty or forty-five minutes, with Mr. Palillero
occasionally walking in and out of the room.
At approximately 2:16 a.m., Ms. Napier was
awakened by her dogs rustling on the bed. She
perceived light coming through the bedroom door and
could hear Mr. Pratschler, who “sounded upset.” App.,
Vol. IV at 218. Ms. Napier then texted Mr. Pratschler
to “[g]o to sleep” and fell back asleep. App., Vol. IV at
218.
Next, Ms. Napier “was woken up to someone’s
hands all over [her], fast and hard, rubbing all over
[her] body, like [her] breasts, into [her] underwear,
sliding them around.” App., Vol. IV at 218. The
assailant’s tongue touched her lips, face, and teeth.
And, the assailant touched Ms. Napier’s clitoris with a

2

Lieutenant Cole arrived late and noticed that many of the people
in attendance were intoxicated, including Mr. Palillero and Mr.
Pratschler.

App. 4
fingernail, causing pain. Lastly, the assailant tried to
push his finger inside Ms. Napier’s vagina.
Ms. Napier recognized the assailant as Mr. Palillero
and pushed him off. Mr. Palillero “scurried out of the
room back into the hallway, and then came back in and
said, ‘Don’t say anything. Don’t say anything.’” App.,
Vol. IV at 220. Ms. Napier then texted Mr. Pratschler,
“Francisco was just in here trying to finger me as I
slept.” App., Vol. IV at 220.
Meanwhile, Lieutenant Cole witnessed Mr.
Pratschler exit the bathroom holding his phone, “very
shaken up.” App., Vol. V at 42. Mr. Pratschler asked
Mr. Palillero, “Did you touch my wife?” App., Vol. V at
42. Mr. Pratschler then asked Lieutenant Cole to read
the text message because he was “the only one sober.”
App., Vol. V at 42. Lieutenant Cole read the text
message and then asked Mr. Palillero whether he had
touched Ms. Napier. Mr. Palillero answered no but
“wasn’t making eye contact.” App., Vol. V at 42.
Lieutenant Cole repeated the question, and Mr.
Palillero again answered no.
At that point, Ms. Napier put on a pair of pants and
exited the bedroom. Seeing Mr. Palillero “leaning up
against the door at the end of the hallway,” she
punched him in the face, screaming, “You were
touching me when I slept.” App., Vol. IV at 222. Ms.
Napier shoved Mr. Palillero and he fell. Lieutenant
Cole separated Ms. Napier and Mr. Palillero. At some
point, Mr. Palillero left the house.
Lieutenant Cole asked Ms. Napier if she wanted
him to call the security forces at Holloman Air Force

App. 5
Base. When Ms. Napier responded yes,3 Lieutenant
Cole exited the house and called the security forces.
2. The Investigation
Holloman Air Force Base Security Forces responded
to the scene. According to the Security Forces report,
Ms. Napier was “shocked” and “traumatized” during
her discussion with the security forces officers, and
could not recall her own address. App., Vol. IV at 225.4
In a written statement that Ms. Napier provided to
Officer Shamelia Nicholson, Ms. Napier recalled Mr.
Palillero entering the bedroom and attempting to touch
her three times while she was sleeping, like “a bad
dream.” App., Vol. IV at 227.5
Later, members of the Holloman Air Force Base
Office of Special Investigations (“OSI”) arrived. OSI
Special Agent Leslie Keopka6 interviewed Ms. Napier
for approximately twenty-five minutes.
3

At trial, Lieutenant Cole suggested that he made the decision to
call the security forces. Whether Lieutenant Cole or Ms. Napier
made the ultimate decision to call the security forces is
immaterial.
4

Sergeant Justin Goad spoke with Ms. Napier and did not notice
any indicia of intoxication.
5

At trial, Ms. Napier clarified that she had not actually seen Mr.
Palillero exit the bedroom and return. Rather, her written
statement recounted three separate “glimpses” of him touching her
before she opened her eyes. App., Vol. IV at 234.
6

Leslie Keopka is now Leslie Franz. As with Ms. Napier, we refer
to Agent Keopka using her last name at the time of the events in
question.

App. 6
Agent Keopka then called Federal Bureau of
Investigation Special Agent Karen Ryndak. Agent
Ryndak and Supervisor Special Agent Amy Willeke
traveled the approximately one-hour drive to Holloman
Air Force Base. While Ms. Napier was waiting for the
FBI agents to arrive, she repeatedly touched her face
while adjusting her glasses, resting her hand on her
face, and rubbing her neck. Agents Willeke and Ryndak
then interviewed Ms. Napier, who was “visibly
shaken,” “upset,” “embarrassed,” and “angry.” App.,
Vol. IV at 149, 189. During the interview, neither
Agent Willeke nor Agent Ryndak “notice[d] any signs
of intoxication on [Ms. Napier].” App., Vol. IV at 149,
190.
After the interview, the FBI agents drove Ms.
Napier back to her house, where they dusted for
fingerprints. The fingerprints the agents collected were
smudged, and consequently not suitable for analysis.
The agents also obtained consent to search Ms.
Napier’s cell phone. Mr. Palillero was not listed in Ms.
Napier’s contacts, and there were no text messages
between Mr. Palillero and Ms. Napier.
Around 11:45 a.m., the FBI agents sent Ms. Napier
to a clinic for a Sexual Assault Nurse Exam (“SANE”).
One standard step in a SANE is collection of DNA.
Michelle Wood, a nurse, swabbed Ms. Napier’s face,
lips, teeth, fingers, nails, knuckles, left arm, left hip,
mons pubis, and labia majora. Nurse Wood also
collected Ms. Napier’s underwear.7
7

As part of the SANE, Ms. Napier filled out a questionnaire. At
trial, Ms. Napier acknowledged that several of her responses on

App. 7
Ms. Napier told Nurse Wood that after the assault
she had inserted a tampon, thrown up, smoked, and
drank.8 App., Vol. V at 136. Ms. Napier also specifically
told Nurse Wood that Mr. Palillero had attempted
“digital penetration.” App., Vol. V at 137.
Later that day, FBI agents arrested Mr. Palillero.
During the drive to jail, Mr. Palillero asked for a drink
of water. The agents provided Mr. Palillero with water
from a water bottle and collected the bottle for a DNA
sample. Agent Ryndak later collected an additional
sample of Mr. Palillero’s DNA using a swab. Although
Ms. Napier was menstruating on April 27, Agent
Willeke did not recall seeing any blood on Mr.
Palillero’s hands during her investigation.
At some point, Mr. Palillero called his wife from jail
and stated that he “was in [Ms. Napier’s] bedroom” and
“went in her room to wake her up.” App., Vol. IV at
157, 184.
3. DNA Expert Testimony
At trial, the United States presented expert
testimony from Jerrilyn Conway, an FBI forensic
examiner. Ms. Conway explained that “DNA transfer
can occur anytime someone comes in contact with an
item.” App., Vol. V at 162. “Another way is through
skin cells or contact,” with various factors influencing
that questionnaire were not accurate. For example, Ms. Napier
answered that she had not brushed her teeth prior to the SANE
when, in fact, she had brushed her teeth.
8

It is not clear from the trial transcript what liquid Ms. Napier
drank.

App. 8
the amount of the transfer. App., Vol. V at 162. Two of
those factors are post-transfer contact—for example,
handwashing, teeth brushing, or vomiting—and the
passage of time.
Ms. Conway reviewed each DNA sample that was
submitted to her laboratory and testified as follows:
• No DNA other than Ms. Napier’s was found
in the mons pubis, labia majora, cheek, hip,
arm, or mouth samples.
• The finger and knuckle samples contained a
mixture of male and female DNA. Ms.
Conway excluded Mr. Palillero as a
contributor.
• A sample taken from the outside of Ms.
Napier’s underwear contained a mixture of
DNA. Ms. Conway was unable to exclude Mr.
Palillero as a contributor. She testified that
the amount of DNA present in the sample
was so low it could have been the result of
“going through the washing machine.” App.,
Vol. V at 173.
• A sample taken from the inside of Ms.
Napier’s underwear contained a mixture of
male and female DNA. Ms. Conway excluded
Mr. Palillero as a contributor.
Ms. Conway explained that these “inconclusive”
results do not “tell us anything either way” about Mr.
Palillero’s guilt. App., Vol. V at 175. Ms. Conway
further opined that she was not surprised at her
inability to identify Mr. Palillero’s DNA in any of the

App. 9
samples, given the events that transpired in the ten
hours between the assault and collection of the
samples.
B. Procedural History
On July 18, 2018, a grand jury in the District of
New Mexico indicted Mr. Palillero on one count of
knowingly engaging in a sexual act with a person
incapable of appraising the nature of the conduct or
physically incapable of declining, within the special
maritime and territorial jurisdiction of the United
States, in violation of 18 U.S.C. §§ 2242(2)(A) and (B)
and 2246(2)(C).
On November 7, 2018, the United States filed its
witness list; this witness list included Ms. Conway, the
FBI forensic examiner. On November 19, five days
after the district court’s deadline for disclosure of
experts, the United States gave notice of its intent to
introduce DNA expert testimony via Ms. Conway. In
response, Mr. Palillero moved to exclude the United
States’ DNA expert or, in the alternative, to delay the
trial.
At the pretrial conference on November 30, the
United States explained that it had been unable to
provide notice of its intent to call a DNA expert before
the district court’s deadline because it did not receive
one of Ms. Conway’s DNA reports until November 16.
In addition, the United States argued there was no
prejudice because it had included Ms. Conway on the
November 7 witness list and had disclosed her first
DNA report to defense counsel on October 29. The
district court determined that the United States’ late

App. 10
filing was “excused” and permitted Ms. Conway to
testify as a DNA expert. Appellee App. at 64.
On December 2, the day before trial, Mr. Palillero
noticed his intent to introduce expert testimony from
Dr. Michael J. Spence to rebut the United States’ DNA
expert. That notice “anticipate[d] that [Dr.] Spence will
provide rebuttal testimony regarding FBI policies and
procedure relating to serological and DNA examination
and their application to the examination in this case.”
Appellee App. at 36. The notice further “anticipated
that [Dr.] Spence will testify in rebuttal to the methods
of DNA analysis including Y short tandem repeat and
autosomal genotyping in addition to rebuttal testimony
about the transfer of DNA, including by touch.”
Appellee App. at 37.
At the start of trial on December 3, the United
States asked that Dr. Spence’s testimony be excluded
because Mr. Palillero’s notice did not include a
meaningful summary. The district court asked defense
counsel to clarify and he responded:
Well, Your Honor, he’s going to say that it is
possible -- I mean, that it’s -- that it’s really not
possible for all of this touching and kissing and
licking and so on to go on without transferring
DNA, Your Honor. But we’re anticipating that
the Government’s expert is going to testify that
it’s possible to touch someone and kiss them and
do all these other things and not transfer DNA,
Your Honor. He’s going to testify to just the
opposite.
App., Vol. IV at 255–56.

App. 11
The district court then asked defense counsel what
efforts he had made to secure expert testimony prior to
trial, and defense counsel responded:
Your Honor, we contacted the New Mexico
Criminal Defense Lawyers Association, we also
called some other people that we know, and we
did search for some other individuals, Your
Honor.
Your Honor, so I -- some of my clients are
doctors. We talked to them. We contacted the
New Mexico Criminal Defense Lawyers
Association. Beyond that, I’m not sure what else
my staff may have done, but that’s -- that was
the crux of it, Your Honor.
App., Vol. IV at 257–58.
The district court ruled that Dr. Spence would not
be permitted to testify because defense counsel’s notice
was neither timely nor detailed enough to give the
United States a chance to prepare. The district court
also found that Mr. Palillero would not be prejudiced by
the inability to rebut the United States’ DNA expert
testimony because that testimony was exculpatory.
On December 4, after the prosecution rested, Mr.
Palillero filed a renewed notice that he intended to
introduce Dr. Spence’s testimony. The renewed notice
parroted the first notice in all relevant respects.
Attached to the renewed notice was Dr. Spence’s
summary of his findings; namely, that DNA evidence
provided “no scientific support for the allegations
associated with this case investigation.” Appellee App.
at 47.

App. 12
The United States objected on the grounds that the
renewed notice was not timely and that it was
cumulative of Ms. Conway’s testimony. The district
court asked defense counsel what would be “new” about
Dr. Spence’s testimony. App., Vol. V at 208. Defense
counsel replied:
Well, Your Honor, let me take a look here to
see. Your Honor, I think he would definitely
testify to some peer-review articles. That’s
definitely new. Those haven’t been heard.
Let me see what else. So I know he has a
peer-reviewed article that he wanted to discuss.
And I’m trying to see what else he said here,
Judge.
App., Vol. V at 208.
After the district court pointed out that defense
counsel’s renewed notice did not mention any peerreviewed articles, defense counsel stated, “I don’t know
what all he’s going to testify to.” App., Vol. V at 210.
And in response to more prodding from the district
court, defense counsel replied, “I do think there would
be something new, Your Honor, but I can’t tell you
what that is.” App., Vol. V at 211.
The district court refused to permit Dr. Spence’s
testimony on the basis that it would be cumulative of
Ms. Conway’s testimony. The district court also found
that Mr. Palillero was not prejudiced because defense
counsel had the opportunity to cross-examine Ms.
Conway.

App. 13
In addition to Ms. Conway, the prosecution called
Ms. Napier, Lieutenant Cole, and others to testify.
Defense counsel did not call any witnesses. The jury
found Mr. Palillero guilty of sexual abuse.
The United States Probation Office then prepared
a Presentence Investigation Report (“PSR”). The PSR
calculated a base offense level of 30, with a two-level
enhancement because Mr. Palillero knew or should
have known the victim was vulnerable. The resulting
total offense level of 32, combined with a criminal
history category of I, yielded a United States
Sentencing Guidelines (“Guidelines”) imprisonment
range of 121 to 151 months.
On July 2, 2019, the district court sentenced Mr.
Palillero to a 121-month term of imprisonment, to be
followed by a 5-year term of supervised release. With
respect to Mr. Palillero’s conduct, the district court
stated:
I am convinced that you went down that hall
and went into that bedroom with intentions to
do more than just digitally touch. You went in
there with the intentions to do much more, and
it was only because -- it was only because she
woke up that it didn’t go further.
App., Vol. VI at 107.
Mr. Palillero timely filed a notice of appeal.
II. DISCUSSION
Mr. Palillero asserts four grounds for reversal:
(1) that the prosecution presented insufficient evidence;

App. 14
(2) that the district court improperly excluded defense
expert testimony; (3) that the district court’s chosen
sentence was substantively unreasonable; and (4) that
the district court committed cumulative error. We
address each of these contentions in turn.
A. Whether the Prosecution Presented
Sufficient Evidence of Sexual Abuse
“We review the sufficiency of the evidence de novo.”
Poe, 556 F.3d at 1124. “The evidence is insufficient to
support a conviction only if no reasonable jury could
have found the defendant guilty beyond a reasonable
doubt.” Id. at 1124–25. “In our review, we do not weigh
conflicting evidence or consider witness credibility, as
that duty is delegated exclusively to the jury.” Id. at
1125 (internal quotation marks omitted).
The jury found Mr. Palillero guilty of violating 18
U.S.C. §§ 2242(2)(A) and (B) and 2246(2)(C). To find
Mr. Palillero guilty, the jury needed to find that he
“knowingly . . . engage[d] in a sexual act” with Ms.
Napier while she was “incapable of appraising the
nature of the conduct,” or “physically incapable of
declining participation in, or communicating
unwillingness to engage in, that sexual act.” Id. § 2242.
Mr. Palillero does not contest he knew Ms. Napier was
asleep, so we focus our analysis solely on the sexual act
element of the offense.
The sexual act charged in the indictment was “the
penetration, however slight, of the anal or genital
opening of another by a hand or finger or by any object,
with an intent to abuse, humiliate, harass, degrade, or
arouse or gratify the sexual desire of any person.” Id.

App. 15
§ 2246(2)(C). A reasonable jury could have found
beyond a reasonable doubt that Mr. Palillero knowingly
engaged in a sexual act.
First, a reasonable jury could credit Ms. Napier’s
testimony that Mr. Palillero entered her bedroom and
attempted to or did insert his finger into her vagina.
Within seconds of the assault, Ms. Napier identified
Mr. Palillero in her text message to Mr. Pratschler.
And in multiple interviews with various law
enforcement officers over the course of the subsequent
twelve hours, Ms. Napier’s story remained consistent
in all material respects.
Second, a reasonable jury could credit Lieutenant
Cole’s testimony that Mr. Palillero was present in Ms.
Napier’s house at the time in question, occasionally
walking in and out of the living room. A reasonable
jury could also credit Lieutenant Cole’s impression of
Mr. Palillero’s reaction when initially confronted with
Ms. Napier’s text message: namely, that he “wasn’t
making eye contact.” App., Vol. V at 42.
Third, a reasonable jury could partially disbelieve
the statements Mr. Palillero made to Ms. Palillero from
jail. To reiterate, Mr. Palillero stated that he “was in
[Ms. Napier’s] bedroom” and “went in her room to wake
her up.” App., Vol. IV at 157, 184. A reasonable jury
could accept that Mr. Palillero was in Ms. Napier’s
bedroom but was not there to wake her up. None of the
trial testimony suggests any reason why Mr. Palillero
might have needed to awaken Ms. Napier. And if there
were some emergency that required such an unusual
step, Lieutenant Cole would presumably have been
aware of it. Further, Mr. Palillero would have had

App. 16
ample incentive to misrepresent to his wife what his
actual conduct and intentions were when he went into
Ms. Napier’s bedroom.
Mr. Palillero’s counterarguments all rest on the idea
that the prosecution overlooked one or more dogs that
did not bark (both figuratively and literally). That is,
he relies on the absence of certain evidence. The
overarching problem with these arguments is that, for
them to create reasonable doubt, there must be some
evidentiary support for the notion that we would
ordinarily expect such things to happen under similar
circumstances. And here that support is missing, in
large part because Mr. Palillero did not call a single
witness to the stand in his defense. With that in mind,
we now review each of Mr. Palillero’s specific
arguments.
Mr. Palillero first argues that if Ms. Napier were
telling the truth, there would have been DNA recovered
from various parts of her person and clothing. To the
contrary, Ms. Conway testified she was not surprised
at her inability to identify Mr. Palillero’s DNA in any
of the samples due to the time that had passed and the
actions taken between the attack and the recovery of
the samples. Mr. Palillero’s argument rests on the idea
that the absence of DNA would support reasonable
doubt. But no trial testimony, scientific or otherwise,
supports that broad assertion. And even if such
evidence had been presented, the jury was free to credit
Ms. Conway’s contrary testimony.
Next, Mr. Palillero posits that—because Ms. Napier
was menstruating on the night in question—
investigators should have found blood on Mr. Palillero’s

App. 17
hands. First, no trial testimony, scientific or otherwise,
supports the notion that any contact between a finger
and a vagina during menstruation necessarily results
in the transfer of residual blood to that finger. Second,
Mr. Palillero went home before investigators arrived at
the scene, leaving him time to wash his hands or
otherwise wipe off traces of evidence. Third, Ms. Napier
testified she was wearing a tampon at the time of the
attack.
Mr. Palillero also contends investigators should
have taken DNA samples from his fingers or hands the
night of the assault. Perhaps, but our task when
reviewing the sufficiency of the evidence is to evaluate
the evidence presented to the jury. We are not
reviewing the thoroughness of the investigation, a topic
that defense counsel could have explored during crossexamination but chose not to.
Mr. Palillero further asserts that—“[i]n light of [Ms.
Napier’s] knowledge of martial arts”—there should
have been “signs of an assault” on Mr. Palillero’s hands
or face. Appellant Br. at 37. To the extent Mr. Palillero
is suggesting he must not have assaulted Ms. Napier
because she did not physically injure him as she woke
from her slumber, a reasonable jury could reject that
argument. No trial testimony supports the notion that
a person trained in martial arts who awakens during
a sexual assault usually (or even generally) inflicts
physical injury on the assailant. Further, Ms. Napier
did react physically once she was fully awake.
Mr. Palillero next argues Ms. Napier’s written
statement contradicts her testimony at trial, because in
that statement, she described Mr. Palillero entering

App. 18
the bedroom and attempting to touch her three times.
At trial, Ms. Napier clarified her written statement,
testifying that she glimpsed Mr. Palillero several times
before she fully opened her eyes. A reasonable jury
could credit Ms. Napier’s clarification and conclude
that Mr. Palillero entered the bedroom once prior to the
assault.
Mr. Palillero also contends it is implausible that Ms.
Napier responded to sexual assault by immediately
texting Mr. Pratschler. That misstates the record,
somewhat. In fact, Ms. Napier responded by pushing
Mr. Palillero away. Then, Mr. Palillero left her
bedroom, returned, told her not to say anything, and
left again. Only then did Ms. Napier text Mr.
Pratschler.
Mr. Palillero similarly asserts that it “strains
credulity” that Ms. Napier did not “fight back or
scream or yell.” Appellant Br. at 38. First, no testimony
supports the notion that victims of sexual
assault—particularly those assaulted while sleeping—
typically do any of those things. So, the absence of
those responses from Ms. Napier does not supply
reasonable doubt. Second, Ms. Napier did fight back.
She got up, put pants on, left the bedroom, and
punched Mr. Palillero in the face.
Lastly, Mr. Palillero argues that one or both of Ms.
Napier’s dogs should have barked during the assault.
At trial, Ms. Napier testified that when Mr. Palillero
entered her bedroom, the dogs rustled around on the
bed and briefly woke her. Otherwise, no trial testimony
addresses the question of how Ms. Napier’s dogs

App. 19
typically react or do not react to movement in the
bedroom.
In sum, a reasonable jury could conclude, beyond a
reasonable doubt, that Mr. Palillero knowingly engaged
in a sexual act when he inserted his finger into Ms.
Napier’s vagina while she was sleeping. Mr. Palillero’s
sufficiency of the evidence challenge fails.
B. Whether the District Court Erred when it
Excluded the Defense’s DNA Expert
The district court excluded Dr. Spence’s testimony
because Mr. Palillero’s two notices of intent to
introduce that testimony were late and non-specific.
“We review the exclusion of expert testimony for abuse
of discretion.” United States v. Paup, 933 F.3d 1226,
1230 (10th Cir. 2019). We uphold the district court’s
decision to exclude Dr. Spence’s testimony due to its
untimely disclosure and inadequacy.
1. Discovery Violation
Rule 16 of the Federal Rules of Criminal Procedure
states that, if the United States discloses a written
summary of expert testimony, “[t]he defendant must,
at the government’s request, give to the government a
written summary of any testimony that the defendant
intends to use under Rules 702, 703, or 705 of the
Federal Rules of Evidence as evidence at trial.” Fed. R.
Crim. P. 16(b)(1)(C). In other words, the defendant
must disclose a written summary of expert testimony.
“This summary must describe the witness’s opinions,
the bases and reasons for those opinions, and the
witness’s qualifications.” Id.

App. 20
There is no doubt that Mr. Palillero failed to comply
with Rule 16. The district court set a deadline of
November 14 for the disclosure of written summaries.
Yet Mr. Palillero did not file his first notice of intent to
introduce expert testimony until December 2, the day
before trial. In addition, defense counsel provided only
a vague statement of the expected testimony that
lacked the bases and reasons for Mr. Spence’s opinions
and his qualifications.
Mr. Palillero responds that his late disclosure was
justified by the United States’ late disclosure. It is true
that the United States filed its written summary five
days late. But Mr. Palillero does not cite anything in
our cases suggesting that a short delay by one party
excuses a much longer delay by the other party. Cf.
United States v. Bishop, 926 F.3d 621, 628 (10th Cir.
2019) (“[O]ne party’s failure to comply with the Rules
does not alter the other party’s obligation to follow the
Rules”). And while the United States’ disclosure was
late, that disclosure was complete and provided well
before the scheduled trial date. Accordingly, the district
court did not err in concluding that Mr. Palillero failed
to comply with Rule 16.
2. Sanction
Rule 16 also addresses the question of remedy. It
states:
If a party fails to comply with this rule, the court
may:
(A) order that party to permit the discovery
or inspection; specify its time, place, and

App. 21
manner; and prescribe other just terms and
conditions;
(B) grant a continuance;
(C) prohibit that party from introducing the
undisclosed evidence; or
(D) enter any other order that is just under
the circumstances.
Fed. R. Crim. P. 16(d)(2).
We have instructed district courts to consider three
factors when contemplating a discovery sanction in a
criminal case: “(1) the reason for the delay in disclosing
the witness; (2) whether the delay prejudiced the other
party; and (3) the feasibility of curing any prejudice
with a continuance.” United States v. Adams, 271 F.3d
1236, 1244 (10th Cir. 2001). “These factors do not
dictate the bounds of the court’s discretion, but merely
guide the district court in its consideration of
sanctions.” Paup, 933 F.3d at 1232 (internal quotation
marks omitted).
a. The reason for the delay
At the start of trial, the district court asked defense
counsel what efforts he had made to secure expert
testimony in a timely manner. Defense counsel replied
that he had “contacted the New Mexico Criminal
Defense Lawyers Association” and others. App., Vol. IV
at 257–58. But defense counsel did not contact Dr.
Spence until the eve of trial and even then, did not
know what the substance of his testimony would entail.
Defense counsel’s explanation for the delay was
wholly inadequate. Defense counsel should have known

App. 22
from the start that DNA would play a role in this case,
given that he was present when detectives swabbed
Mr. Palillero. In addition, defense counsel received Ms.
Conway’s lab report on October 29, which should have
put him on notice of the significance of the DNA
evidence. At the very latest, defense counsel should
have known on November 7, when the United States
disclosed its witness list, that it intended to call Ms.
Conway to testify as to that report.
This court has previously held defense counsel
accountable for comparable delay. In Adams, for
example, we upheld the district court’s exclusion of the
defendant’s expert witness, reasoning
that three months had passed since the
defendant’s indictment, that defense counsel
knew or should have known of defendant’s claim
that he lied to the police in order to protect his
girlfriend, and that concerns about the
defendant’s mental state and ability had been
raised by the defendant’s grandmother both
prior to and at the plea hearing.
271 F.3d at 1244.
Here, the nurse collected evidence to be processed
for DNA on the night of the attack and, as of
September 21, defense counsel was provided with the
results of those tests. To the extent defense counsel
hoped to argue those results were exculpatory, he
should have initiated his search for a DNA expert
immediately. Instead, defense counsel waited until
December 2, the day before trial, to name Dr. Spence as

App. 23
an expert and then did so without any understanding
of the details of the anticipated testimony.
b. Prejudice
The district court found that Mr. Palillero’s
inadequate and late notice prejudiced the United
States by denying it the chance to prepare for Dr.
Spence’s testimony. We agree. In Adams, we held that
a notice filed three days before trial prejudiced the
United States. Id. It follows that a notice filed the day
before trial likewise creates prejudice.
Mr. Palillero argues that he was prejudiced by the
exclusion of Dr. Spence’s testimony. But that turns the
inquiry on its head. Our analysis asks whether the
failure to comply with the expert disclosure deadlines
prejudiced the other party, not whether exclusion of the
expert would harm the violator. Here, the prejudicial
effect of the discovery violation is apparent. The United
States had no opportunity to prepare for the cross
examination of Dr. Spence.
Regardless, “even in the absence of prejudice, a
district court may suppress evidence that did not
comply with discovery orders to maintain the integrity
and schedule of the court.” Id. (internal quotation
marks omitted). If we were to require the district court
to allow Dr. Spence’s testimony where it was neither
timely nor properly summarized, it could undermine
the integrity of the judicial proceeding by encouraging
gamesmanship.

App. 24
c. The feasibility of a continuance
Next we consider the feasibility of granting a
continuance.9 This factor further supports the district
court’s decision. The Air Force transported Lieutenant
Cole from Japan to New Mexico so he could testify at
trial. A continuance on the eve of trial would have
required that Lieutenant Cole make an extra trip
across the Pacific at some future date. As a result, a
continuance was not feasible.
In summary, defense counsel failed to present a
reasonable justification for the failure to adequately
and timely comply with the disclosure of the defense’s
DNA expert. The failure prejudiced the United States,
and that prejudice could not have been feasibly avoided
by a continuance. Accordingly, we affirm the district
court’s exclusion of Dr. Spence’s testimony.
C. Whether Mr. Palillero’s Sentence is
Substantively Unreasonable
1. Standard of Review
“This court reviews a district court’s decision to
grant or deny a request for variance under a
deferential abuse of discretion standard.” United States
v. Beltran, 571 F.3d 1013, 1018 (10th Cir. 2009). “A
district court abuses its discretion when it renders a

9

Although the district court did not expressly address the
feasibility of a continuance, our precedents do not require that it
do so. In United States v. Adams, for example, the district court
failed to address this factor but we nevertheless affirmed its
decision to exclude expert testimony. 271 F.3d 1236, 1244 (10th
Cir. 2001).

App. 25
judgment that is arbitrary, capricious, whimsical, or
manifestly unreasonable.” Id. (internal quotation
marks omitted). “When the district court’s sentence
falls within the properly calculated [G]uideline[s]
range, this Court must apply a rebuttable presumption
that the sentence is reasonable.” Id. “The presumption
of reasonableness is, however, a deferential standard
the defendant may rebut by demonstrating that the
sentence is unreasonable when viewed against the
other factors delineated in [18 U.S.C.] § 3553(a).” Id.
(internal quotation marks omitted). One of those
factors is “the need to avoid unwarranted sentence
disparities among defendants with similar records who
have been found guilty of similar conduct.” 18 U.S.C.
§ 3553(a)(6).
2. Analysis
Mr. Palillero argues the district court’s sentence
was unreasonable because his offense conduct was less
severe than most offense conduct punishable under the
same statute, as well as for the related reason that the
cases cited by the prosecution and relied on by the
district court involved more serious sexual abuse than
what occurred in this case. Mr. Palillero fails, via these
arguments, to rebut the presumption of reasonableness
that we attach to his within-Guidelines sentence.
The district court imposed a sentence of 121 months’
imprisonment, at the low end of the applicable
Guidelines range. The district court agreed with the
Guidelines calculations in the PSR and considered the
§ 3553 factors in imposing sentence. In addition, the
district court noted, that to the extent Mr. Palillero’s
assault was less serious than some other instances of

App. 26
sexual abuse, that was only because Ms. Napier woke
up and pushed him away. Under these circumstances,
the district court did not abuse its discretion in denying
Mr. Palillero’s request for a variance. See United States
v. Lente, 759 F.3d 1149, 1168 (10th Cir. 2014)
(explaining that even “disparate sentences are allowed
where the disparity is explicable by the facts on the
record” (quotation marks omitted)).
Mr. Palillero also contends 121 months’
imprisonment is unreasonably long because “there was
no force or intercourse.” Appellant Br. at 51. By
intercourse Mr. Palillero appears to mean penetration
with a penis. But that is not Congress’s definition of a
sexual act, which includes digital penetration of
another person’s genital orifices. See 18 U.S.C.
§ 2246(2)(C). It was Mr. Palillero’s nonconsensual
commission of a sexual act, as defined by Congress,
that in turn determined his applicable Guidelines
range of 121 to 151 months’ imprisonment.
Finally, Mr. Palillero argues that other sexual abuse
cases resulting in comparable or longer sentences
involved more serious sexual abuse than what occurred
in this case. Though some of the cited cases involved
observable physical injuries, here Mr. Palillero inflicted
pain on Ms. Napier by rubbing his fingernail on her
clitoris. Mr. Palillero’s argument also assumes the only
relevant injuries are physical injuries. At the
sentencing hearing, Ms. Napier testified about the
long-term emotional harm she has suffered as a result
of Mr. Palillero’s assault. In light of these
considerations, the district court’s chosen sentence was
neither unreasonable nor arbitrary.

App. 27
D. Whether the District Court Committed
Cumulative Error
1. Legal Standard
“We consider cumulative error only if the appellant
has shown at least two errors that were harmless.”
United States v. Christy, 916 F.3d 814, 827 (10th Cir.
2019). “Anything less would leave nothing to
cumulate.” Id. “The question is whether the two or
more harmless errors together constitute prejudicial
error.” Id.
2. Analysis
Mr. Palillero’s opening brief spends approximately
three pages on cumulative error, in which he asserts
seven errors allegedly made by the district court. The
first four asserted errors are merely different versions
of the argument that it was an abuse of discretion to
exclude Dr. Spence’s testimony (discussed above). The
other three asserted errors are each raised in a single
sentence, and we do not consider them. United States
v. Walker, 918 F.3d 1134, 1151 (10th Cir. 2019)
(“[A]rguments may be deemed waived when they are
advanced in an opening brief only in a perfunctory
manner.” (internal quotation marks omitted)).
The district court did not err. As a result, Mr.
Palillero’s cumulative error claim fails.

App. 28
III. CONCLUSION
We AFFIRM Mr. Palillero’s conviction and sentence.
Entered for the Court

Carolyn B. McHugh
Circuit Judge

App. 29

APPENDIX B
UNITED STATES DISTRICT COURT
District of New Mexico
Case Number: 2:18CR02311-001KG
USM Number: 97843-051
Defendant’s Attorney: William S. Jennings,
Retained
[Filed: July 2, 2019]
_______________________________________
UNITED STATES OF AMERICA
)
)
V.
)
)
FRANCISCO JAVIER PALILLERO
)
_______________________________________)
Judgment in a Criminal Case
THE DEFENDANT:
G pleaded guilty to count(s) .
G pleaded nolo contendere to count(s) which was
accepted by the court.
X was found guilty on count(s) 1 of the Indictment
after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:

App. 30
Title and
Section

Nature of
Offense

Offense
Ended

18 U.S.C. Sec.
2242(2)(A)
and (B) and
2246(2)(C)

Sexual
Abuse

04/28/2018

Count

The defendant is sentenced as provided in pages 2
through 6 of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.
G The defendant has been found not guilty on
count(s).
G Count(s) dismissed on the motion of the United
States.
It is ordered that the defendant must notify the United
States attorney for this district within 30 days of any
change of name, residence, or mailing address until all
fines, restitution, costs, and special assessments
imposed by this judgment are fully paid. If ordered to
pay restitution, the defendant must notify the court
and United States attorney of material changes in
economic circumstances.

App. 31
7/2/2019
Date of Imposition of Judgment
/s/ Kenneth J. Gonzales
Signature of Judge
Honorable Kenneth J. Gonzales
United States District Judge
Name and Title of Judge
7/2/2019
Date
IMPRISONMENT
The defendant is hereby committed to the custody of
the Federal Bureau of Prisons to be imprisoned for a
total term of: 121 months.
The Court recommends that Immigration and
Customs Enforcement begin removal proceedings
during service of sentence.
X The court makes the following recommendations to
the Bureau of Prisons:
Federal Correctional Institution in the State
of New Jersey, or as close to as possible, if
eligible.
The Court recommends the defendant
participate in the Bureau of Prisons sex offender
program, if eligible.
X The defendant is remanded to the custody of the
United States Marshal.

App. 32
G The defendant shall surrender to the United States
Marshal for this district:
G at on .
G as notified by the United States Marshal.
G The defendant shall surrender for service of
sentence at the institution designated by the
Bureau of Prisons:
G before 2 p.m. on .
G as notified by the United States Marshal.
G as notified by the Probation or Pretrial Services
Office.
RETURN
I have executed this judgment as follows:

Defendant delivered on ____________________ to
_________________ at _________________ with a
certified copy of this judgment.
____________________________
UNITED STATES MARSHAL
By__________________________________
DEPUTY UNITED STATES MARSHAL

App. 33
SUPERVISED RELEASE
Upon release from imprisonment, you will be on
supervised release for a term of: 5 years.
If the defendant is deported, said term of
supervised release shall be unsupervised. If the
defendant is not deported, said term of
supervised release shall be supervised.
MANDATORY CONDITIONS
1. You must not commit another federal, state, or local
crime.
2. You must not unlawfully possess a controlled
substance.
3. You must refrain from any unlawful use of a
controlled substance. You must submit to one drug
test within 15 days of release from imprisonment
and at least two periodic drug tests thereafter, as
determined by the court.
G The above drug testing condition is
suspended, based on the court’s
determination that you pose a low risk of
future substance abuse. (Check, if
applicable.)
4. G You must make restitution in accordance with
18 U.S.C. §§ 3663 and 3663A or any other
statute authorizing a sentence of restitution.
(check if applicable)

App. 34
5. X You must cooperate in the collection of DNA as
directed by the probation officer. (Check, if
applicable)
6. G You must comply with the requirements of the
Sex Offender Registration and Notification Act
(34 U.S.C. § 20901, et seq.) as directed by the
probation officer, the Bureau of Prisons, or any
state, local, or tribal sex offender registration
agency in the location where you reside, work,
are a student, or were convicted of a qualifying
offense. (check if applicable)
7. G You must participate in an approved program
for domestic violence. (Check, if applicable)
You must comply with the standard conditions that
have been adopted by this court as well as with any
other conditions on the attached page.
STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply
with the following standard conditions of supervision.
These conditions are imposed because they establish
the basic expectations for your behavior while on
supervision and identify the minimum tools needed by
probation officers to keep informed, report to the court
about, and bring about improvements in your conduct
and condition.
1.

You must report to the probation office in the
federal judicial district where you are authorized
to reside within 72 hours of your release from
imprisonment, unless the probation officer

App. 35
instructs you to report to a different probation
office or within a different time frame.
2.

After initially reporting to the probation office,
you will receive instructions from the court or
the probation officer about how and when you
must report to the probation officer, and you
must report to the probation officer as
instructed.

3.

You must not knowingly leave the federal
judicial district where you are authorized to
reside without first getting permission from the
court or the probation officer.

4.

You must answer truthfully the questions asked
by your probation officer.

5.

You must live at a place approved by the
probation officer. If you plan to change where
you live or anything about your living
arrangements (such as the people you live with),
you must notify the probation officer at least 10
days before the change. If notifying the
probation officer in advance is not possible due
to unanticipated circumstances, you must notify
the probation officer within 72 hours of
becoming aware of a change or expected change.

6.

You must allow the probation officer to visit you
at any time at your home or elsewhere, and you
must permit the probation officer to take any
items prohibited by the conditions of your
supervision that he or she observes in plain
view.

App. 36
7.

You must work full time (at least 30 hours per
week) at a lawful type of employment, unless the
probation officer excuses you from doing so. If
you do not have full-time employment you must
try to find full-time employment, unless the
probation officer excuses you from doing so. If
you plan to change where you work or anything
about your work (such as your position or your
job responsibilities), you must notify the
probation officer at least 10 days before the
change. If notifying the probation officer at least
10 days in advance is not possible due to
unanticipated circumstances, you must notify
the probation officer within 72 hours of
becoming aware of a change or expected change.

8.

You must not communicate or interact with
someone you know is engaged in criminal
activity. If you know someone has been convicted
of a felony, you must not knowingly
communicate or interact with that person
without first getting the permission of the
probation officer.

9.

If you are arrested or questioned by a law
enforcement officer, you must notify the
probation officer within 72 hours.

10.

You must not own, possess, or have access to a
firearm, ammunition, destructive device, or
dangerous weapon (i.e., anything that was
designed, or was modified for, the specific
purpose of causing bodily injury or death to
another person such as nunchakus or tasers).

App. 37
11.

You must not act or make any agreement with a
law enforcement agency to act as a confidential
human source or informant without first getting
the permission of the court.

12.

If the probation officer determines that you pose
a risk to another person (including an
organization), the probation officer may require
you to notify the person about the risk and you
must comply with that instruction. The
probation officer may contact the person and
confirm that you have notified the person about
the risk.

13.

You must follow the instructions of the
probation officer related to the conditions of
supervision.

SPECIAL CONDITIONS OF SUPERVISION
If deported, you must not reenter the United
States without legal authorization.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the
conditions specified by the court and has provided me
with a written copy of this judgment containing these
conditions. For further information regarding these
conditions, see Overview of Probation and Supervised
Release Conditions, available at: www.uscourts.gov.
Defendant’s Signature

________________________

Date ______________________

App. 38
CRIMINAL MONETARY PENALTIES
The defendant must pay the following total criminal
monetary penalties under the schedule of payments.
G The Court hereby remits the defendant’s Special
Penalty Assessment; the fee is waived and no
payment is required.
Totals:
Assessment

JVTA
Assessment*

Fine

Restitution

$100.00

$

$

$59.98

G The determination of the restitution is deferred
until . An Amended Judgment in a Criminal Case
will be entered after such determination.
G The defendant must make restitution (including
community restitution) to the following payees in
the amount listed below.
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay,
payment of the total criminal monetary penalties is due
as follows:
A X In full immediately; or
B G $ due immediately, balance due (see special
instructions regarding payment of criminal
monetary penalties).
*

Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22

App. 39
Special instructions regarding the payment of
criminal monetary penalties: Criminal monetary
penalties are to be made payable by cashier’s
check, bank or postal money order to the U.S.
District Court Clerk, 333 Lomas Blvd. NW,
Albuquerque, New Mexico 87102 unless otherwise
noted by the court. Payments must include
defendant’s name, current address, case number
and type of payment.
Pursuant to the Mandatory Victim Restitution
Act, it is further ordered that the defendant will
make restitution to the victim in the amount of
$59.98. Restitution shall be submitted to the
Clerk of the Court, Attention Intake, 333 Lomas
Boulevard N.W. Suite 270, Albuquerque, New
Mexico 87102, to then be forwarded to the
victim(s). The restitution will be paid during the
defendant’s term of incarceration.
Unless the court has expressly ordered otherwise, if
this judgment imposes imprisonment, payment of
criminal monetary penalties is due during the period of
imprisonment. All criminal monetary penalties, except
those payments made through the Federal Bureau of
Prisons’ Inmate Financial Responsibility Program, are
made to the clerk of court.
The defendant shall receive credit for all payments
previously made toward any criminal monetary
penalties imposed.
Payments shall be applied in the following order:
(1) assessment, (2) restitution principal, (3) restitution
interest, (4) fine principal, (5) fine interest,

App. 40
(6) community restitution, (7) JVTA assessment,
(8) penalties; and (9) costs, including cost of prosecution
and court costs.

App. 41

APPENDIX C
*

*

*

*

[pp. 203]
THE COURT:

Okay. Thank you, Mr. Jennings.

Mr. Saltman -- Let me just note what Mr. Saltman
had indicated, which are the elements of the offense as
charged in the Indictment. And to find the Defendant
guilty of the crime, and we’re not at the stage of finding
guilt or innocence, Mr. Palillero, we’re just determining
whether there’s enough evidence in the record to allow
the trial to proceed.
So the elements, once again, as Mr. Saltman
described, first, that the Defendant knowingly engaged
in or knowingly attempted to engage in a sexual act
with Jane Doe; that the Defendant knew that Jane Doe
was incapable of apprizing the nature of the conduct, or
the Defendant knew that Jane Doe was physically
incapable of declining participation in or
communicating unwillingness to engage in that sexual
act; and, third, the offense was committed within the
special maritime and territorial jurisdiction of the
United States at Holloman Air Force Base.
The term “sexual act” means the penetration,
however slight, of the genital opening of another by
finger with the intent to abuse, humiliate, harass,
degrade, arouse, or gratify the sexual desire of any
person.

App. 42
So the rule that I’m applying here is Rule 29, and
under that rule of the Federal Rules of Criminal
Procedure after the Government closes its evidence, the
Court on the Defendant’s motion must enter a
judgment of acquittal of any offense for which the
evidence is insufficient to sustain a conviction. In
determining whether to grant a motion for judgment of
acquittal, the Court asks only whether taking the
evidence in the record in the light most favorable to the
Government a reasonable jury could find the Defendant
guilty beyond a reasonable doubt.
The Court must enter both -- excuse me -- consider
both direct and circumstantial evidence together with
reasonable inferences that can be drawn from the
evidence. And the Court must not weigh conflicting
evidence or consider the credibility of witnesses, but
simply determine whether the evidence if believed
would establish each element of the offense.
Ultimately, the evidence supporting the conviction
must be substantial and do more than raise a suspicion
of guilt, and that would be considering whether there’s
substantial evidence.
I’ve considered the evidence that Mr. Saltman
described. I’m also considering the audiotape that was
played as Exhibit 1, that includes Defendant’s
statement where he acknowledges that he was in the
victim’s room. I’m also considering the testimony of the
victim which, in her view, in her testimony that the
Defendant was in her room at least once -- twice, and
may have been in there as many as three times that
evening, and that was corroborated at least to some
extent by the testimony of Lieutenant Cole, who did

App. 43
indicate that while he was meeting with the spouse in
the living room Mr. Palillero had withdrawn from that
group and went down the hall.
I’m also considering the victim’s testimony where
she identifies Mr. Palillero positively, including a
description of his eye, that he had -- perpetrator had
beer or alcohol on his breath. That was corroborated
with other testimony that Mr. Palillero had been
drinking alcohol that evening and that he had been
intoxicated.
So that is among the items of evidence. I’m finding
that, again, viewed in the light most favorable to the
Government, to determine that there is sufficient
evidence to allow the trial to proceed, and so in this
way I’m denying the motion that Mr. Jennings brought
on behalf of Mr. Palillero under Rule 29(a). Okay.
That’s the ruling.
So with that, Mr. Jennings, for the defense case,
what is your intention for this afternoon?
MR. JENNINGS: Your Honor, our intention this
afternoon is not to call Ms. Ashley Napier or Adam
Pratschler, and we’re not going to call Mr. Palillero
either.
THE COURT: All right. And that’s certainly Mr.
Palillero’s right to determine whether to testify or to
not testify. And I’ll have an instruction for the jury that
they cannot consider that decision of Mr. Palillero to
not testify in determining whether he is guilty of the
offense.

App. 44
So with that not being part of your evidence, what
will you do for this -- for your defense case?
MR. JENNINGS: Well, Your Honor, we did file a
renewed motion for intent to offer expert testimony.
Would the Court -- We’re withdrawing our 412 motion,
Judge, with intent to present DNA, the DNA evidence.

App. 45

APPENDIX D
*

*

*

*

[pp. 207]
THE COURT: Okay. Is Mr. Spence, your proposed
expert, available to testify this afternoon?
MR. JENNINGS: I believe he is, Your Honor.
THE COURT: Is he here in the courthouse?
MR. JENNINGS: He is not in the courthouse.
THE COURT: All right. Then what witness will you
be calling to the stand this afternoon?
MR. JENNINGS: I will not be calling any witnesses
to the stand this afternoon, Your Honor.
THE COURT: Okay. But you say Mr. Spence is
available to testify this afternoon?
MR. J ENNINGS: I believe that he is, Your Honor.
THE COURT: All right. I suggest you give him a
call and get him here as soon as possible. But as to
whether he should testify at all, Mr. Saltman?
MR. SALTMAN: I’m going to let Ms. Villalobos
handle this.
THE COURT: Okay. Go ahead.
MS. VILLALOBOS : Your Honor , again today -- we
have the same objection that we did. We did not receive
notice of what Mr. Spence would testify to until -- I’m

App. 46
not sure when the notice came through -- sometime
today. I reviewed it just at the end of the lunch hour. It
is -- Essentially, it’s just a resuscitation of exactly what
Ms. Conway just testified to. It is just a -- the notice is
just a resuscitation of exactly what’s in the lab reports
that Ms. Conway just testified to, so I would object that
we didn’t receive notice of what he was going to testify
to until this afternoon, so my expert hasn’t had any
time to review any of this. But additionally, it would be
cumulative because it’s exactly what -- what’s in here,
at least, is exactly what Ms. Conway just testified to.
THE COURT: Mr. Jennings, what would be new if
Mr. Spence were allowed to testify?
MR. JENNINGS: Well, Your Honor, let me take a
look here to see. Your Honor, I think he would
definitely testify to some peer-review articles. That’s
definitely new. Those haven’t been heard.
Let me see what else. So I know he has a peerreviewed article that he wanted to discuss. And I’m
trying to see what else he said here, Judge.
Your Honor, may I give him a call real quick?
THE COURT: Let me ask. So one -- when we
discussed this on Friday -- here I’m speaking to Ms.
Villalobos -- my recollection is that there was no
objection if Mr. Jennings was able to secure an expert
for testimony this week.
MS. VILLALOBOS: That is correct.

App. 47
THE COURT: And part of it was so that as long as
the Government had a chance to interview or even voir
dire the witness before testifying before the jury.
MS. VILLALOBOS: That is correct, Your Honor.
THE COURT: Okay. And if you were given a chance
to voir dire Mr. Spence, what would your position be at
this time?
MS. VILLALOBOS: Your Honor, the Government’s
position is we would be okay with that, but again, I
would renew the objection that what is in this notice is
-- there’s nothing about this peer-reviewed article in
this notice. It is just purely a resuscitation of what Ms.
Conway testified to that was in the lab reports. So
there’s nothing about this peer-reviewed article in
there, there’s nothing about any other items that Mr.
Spence would testify to in there, so I still haven’t gotten
notice of any other items that he would testify to.
MR. JENNINGS: Your Honor, in the renewed notice
there should be Exhibit 1, which is his “Summary:
Motion of Intent to Testify -- Motion of Intent for
Defense Expert to Testify: U.S.A. v. Francisco
Palillero.” That exhibit should be in there, Judge.
THE COURT: And is there peer-review literature in
that document?
MR. JENNINGS: There is not, Your Honor, but I
don’t know that he would -- I don’t think that you
would be submitting everything he’s going to testify to
in our motion for intent to testify. I don’t think that you
submit absolutely everything in that.

App. 48
THE COURT: Well, there is kind of a notice aspect
to this to give both sides whenever there’s expert
testimony proffered at least some notice what the
testimony would be, what the expert opinion would be,
and so that way opposing counsel can prepare and
determine whether any rebuttal or opposing testimony
would be - - should be elicited as a response. So -MR. JENNINGS: Well, Your Honor -THE COURT: There’s no peer-review reference in
the document 87-1 that you tendered to the Court.
What else would he testify to?
MR. JENNINGS: Well, Your Honor, again, this is
that question, I think it’s come up before. I don’t -- I
don’t know what all he’s going to testify to, Judge. I
guess I could take a look here.
He’s definitely going to testify to “Item 1: Two mons
pubis/outer labia majora swabs from AN. There was no
indication of seminal material or sperm.
“Item 2: Two oral swabs from AN”; that “There was
no indication of seminal material or sperm cells on
these swabs. DNA Results: Autosomal (STR) DNA . . .”
Your Honor, I can go through the whole list but,
again, I think that’s the reason that I need my expert
here, is to testify to the things that are beyond what I
would understand to testify to, and the Government
keeps saying that it would just be duplicative, so at the
very least I don’t see what it is that they have to
prepare for if they think it’s nothing more than a
duplicative testimony, Judge, which we should be
allowed to have.

App. 49
If this is considered purely exculpatory evidence,
then I think that we should have an expert who can
explain it to the jury because it’s very important, Your
Honor. And again, I think that, you know, considering
that I had made numerous requests for DNA reports,
Your Honor, I had made -- at least filed a couple of
motions, one asking to compel the identities of the
other DNA contributors. I also filed a motion for a
continuance based on this issue. And, Judge, I mean,
I’ve made numerous motions on this and I think to
deny us the ability to have our expert testify kind of
that cumulative effect, overall, is becoming pretty
prejudicial to Mr. Palillero and his defense.
THE COURT: Okay. So there would be nothing
new, necessarily, that Mr. Spence would testify to
beyond what Ms. Conway has already testified to -MR. JENNINGS: Well, no.
THE COURT: -- her testing and the results of her
testing?
MR. JENNINGS: I do think there would be
something new, Your Honor, but I can’t tell you what
that is.
THE COURT: If you don’t know, then I can’t make
a judgment as to whether it’s relevant and not
cumulative, whether the Government has had any
ability to prepare for their case in rebuttal to any
defense case.
MR . JENNINGS: Well, Your Honor, can we have a
hearing to determine if he has anything new to
determine if he has anything new to testify to and then

App. 50
make a determination? He says he can be here in a
little less than an hour.
THE COURT: All right. Ms. Villalobos?
Mr. Saltman?
MS. VILLALOBOS: Your Honor, I believe defense
counsel has just stated he doesn’t even know what his
expert would testify to, so I don’t know how the
Government could have any notice as to what Mr.
Spence would testify to if defense counsel does not even
know what he’s going to testify to.
THE COURT: Well, that’s what I heard as well, Mr.
Jennings, so given the timing of the notice -- The first
notice was on December 2nd, two days ago, the day
before we began trial. Your second notice was filed
today. That’s document 87. You have attached
document 87-1 . You indicated earlier that the witness
would testify to peer-review articles, though you have
indicated now that you do not know what Mr. Spence
would be testifying to. Given the timing, he’s not here
in the courthouse available to testify at this particular
time, I’m compelled to deny your motion to allow Mr.
Spence to testify. So that’s my ruling. I understand
what your position is, though I’m not clear, neither is
counsel, aware of what the witness would say if given
a chance to testify.
So for that reason, if he is going to testify, based on
some of the description you gave, I will find that it is
cumulative to the testimony already provided by Ms.
Conway. Given where we are, the Government has
rested its case. We had no other defense witness to put
up this afternoon. It’s five minutes after three. The jury

App. 51
is waiting. I’m going to exclude his testimony. So that’s
my ruling.
*

*

*

*

[pp. 217]
THE COURT: Give me one second. Please be seated
for just a moment.
All I wanted to do was at least supplement or
augment my ruling on the denial of the motion to allow
Mr. Spence to testify. I’m going to note also I’m -- it’s
discretionary on the Court, and part of my
consideration is that Mr. Jennings did have an ample
opportunity to cross-examine Ms. Conway in
*

*

*

*

[pp. 218]
the area of her analysis and the results of her testing
and was able to elicit testimony that the results of her
testing ruled out Mr. Palillero’s DNA from any of the
samples that were taken from Ms. Napier in the form
of swabs, et cetera. So that was well-established by Mr.
Jennings, and in this way I’m finding that with my
ruling I’m not finding that Mr. Prejudice -- Mr.
Palillero was prejudiced by the ruling to exclude Mr.
Spence. So that’s what I wanted to add to my ruling.

App. 52

APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
CRIMINAL NO. 18-2311 KG
[Filed: November 19, 2018]
_______________________________________
UNITED STATES OF AMERICA,
)
)
Plaintiff,
)
)
vs.
)
)
FRANCISCO JAVIER PALILLERO, )
)
Defendant.
)
_______________________________________)
UNITED STATES’ NOTICE OF INTENT TO
INTRODUCE EXPERT WITNESS TESTIMONY
PERTAINING TO SEROLOGY AND DNA
EVIDENCE PURSUANT TO RULES 702, 703
and 705
Pursuant to Rule 16(a)(1)(G), the government
hereby discloses its expert witnesses and the type of
testimony it intends to introduce under Rules 702, 703
and 705 of the Federal Rules of Evidence. The United
States has provided discovery as it was made available.

App. 53
DNA / SEROLOGY / TRACE EVIDENCE
At the trial of this cause, the government intends to
call Forensic Scientist Jerrilyn Conway, the DNA
Examiner from the DNA Casework Unit with the
Federal Bureau of Investigation (FBI) assigned to the
case. Ms. Conway’s testimony may include her expert
opinions or specialized knowledge regarding this
matter, derived from her education, training, and
professional experience as a forensic scientist. Ms.
Conway has testified as an expert in the area of DNA
examinations on numerous occasions. The United
States anticipates that Ms. Conway will testify
regarding FBI policies and procedures relating to
serological and DNA examinations and their
application to the examination in this case. It is
anticipated Ms. Conway will testify about methods of
DNA analysis including Y short tandem repeat and
autosomal genotyping. Ms. Conway may testify about
the transfer of DNA, including by touch.
The United States anticipates Ms. Conway may
testify to the following matters:
The DNA Casework Unit examined an array of
items seized as evidence in this case and subjected
those items to serology or DNA analysis. Among other
things, Ms. Conway will testify that the victim’s DNA
was present on a number of swabs taken from the
victim’s body and the victim’s clothing, and the
Defendant’s DNA cannot be included on any of these
items.
Two mons pubis/outer labia majora swabs and two
oral swabs from the victim were tested for the presence

App. 54
of semen; however none was detected. Additionally,
only female DNA, consistent with the victim, was
present on these items. Swabs from the victim’s cheeks
and around her mouth, left hip, and left arm showed no
DNA typing results unlike the victim.
Swabs from the fingers and knuckles of the victim
showed both female and male DNA. The Defendant’s
DNA was excluded as a potential contributor.
The victim’s underwear was examined for the
presence of semen; however none was detected. The
Y-STR typing results for the outside crotch of the
victim’s underwear indicate the presence of DNA from
two or more males. Because these mixture results
cannot be attributed to individual contributors, they
are not suitable for matching purposes; however, they
may be used for exclusionary purposes. Based on the
Y-STR typing results, no comparison information for
the outside crotch of the victim’s underwear can be
provided for Defendant, thus the Defendant cannot be
included or excluded as a potential contributor.
A mixture of male and female DNA was obtained
from the inside crotch of the victim’s underwear. No
autosomal DNA typing results unlike the victim’s were
obtained from the inside crotch of the victim’s
underwear. The Y-STR typing results for the inside
crotch of the victim’s underwear indicate the Defendant
is excluded as a potential contributor to the male DNA
present.
The low quantity of male DNA present on the
victim’s underwear could be consistent with touch DNA
or DNA remaining from a previous sexual encounter

App. 55
after the underwear were subjected to washing in a
washing machine.
The DNA results obtained from the tested items are
not eligible for entry into the Combined DNA Index
System (CODIS).
DNA typing using the polymerase chain reaction
(PCR) was performed with the GlobalFiler™ and/or
AmpFlSTR® Yfiler™ PCR Amplification Kits. The
Y-STR loci are located on the male Y-chromosome and
are transmitted through a paternal lineage from father
to son. Barring mutation, all males in the same
paternal lineage have the same Y-STR typing results.
A paternal lineage consists of those male relatives to
whom the same Y-chromosome has been transmitted
from a common ancestor.
Because the FBI Laboratory is continuing to
evaluate statistical approaches for calculating the
rarity of mixed Y-STR profiles, it only provides
inclusionary and statistical conclusions for
distinguishable individual contributors in Y-STR
mixtures.
Forensic Scientist Jerrilyn Conway’s full reports,
including bench notes, chain-of-custody logs, statistics,
communication logs, laboratory worksheets, evidence
check-in notes, and manuals and procedures of the
DNA Casework Unit, have previously been disclosed to
the defendant as bates stamped discovery numbered
338-484.
This disclosure sets forth all the opinions of the
expert and describes the reasons and bases supporting
her opinions. Further, the United States has previously

App. 56
disclosed the curriculum vitae of Jerrilyn Conway,
setting forth the training, experience, and
qualifications that permit the proffered opinions.
CONCLUSION
WHEREFORE, the United States respectfully
requests, pursuant to Kumho Tire Co., Ltd. v.
Carmichael, that this Court exercise its “special
gatekeeping obligation” and allow the above described
expert testimony of the witness, Jerrilyn Conway, to be
offered in the United States’ case-in-chief at trial in
this matter and that the Court find that the proposed
testimony by this witness has a “reliable basis in the
knowledge and experience” in her identified discipline,
and is therefore admissible. 526 U.S. 137, 152 (1999);
see also Dodge v. Cotter Corp., 328 F.3d 1212, 1221-22
(10th Cir. 2003).
Electronically Filed 11/19/18
MATILDA VILLALOBOS
MARK A. SALTMAN
Assistant United States Attorneys
200 N. Church Street
Las Cruces, NM 88001
(575) 522-2304
[Certificate of Service Omitted
for Purposes of this Appendix]
*

*

*

*

App. 57

APPENDIX F
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
Case No. 2:18-cr-02311-KG
[Filed: November 28, 2018]
_______________________________________
UNITED STATES OF AMERICA,
)
)
Plaintiff,
)
)
vs.
)
)
FRANCISCO JAVIER PALILLERO, )
)
Defendant.
)
_______________________________________)
DEFENDANT RESPONSE TO THE UNITED
STATES NOTICE TO INTRODUCE EXPERT
WITNESS TESTIMONY PERTAINING TO
SEROLOGY AND DNA EVIDENCE PURSUANT
TO RULE 702, 703 and 705
COMES NOW, Defendant, by and through his
counsel W. Shane Jennings, and hereby responds to the
United States’ motion as follows:
I.

DNA/SEROLOGY/TRACE EVIDENCE

The government intends to call Forensic Scientist
Jerrilyn Conway, the DNA Examiner from the DNA

App. 58
casework Unit with the Federal Bureau
Investigation (FBI) assigned to the case.
II.

of

LEGAL STANDARDS

Ms. Conway can testify to the FBI’s policies,
procedures relating to the DNA evidence. She is
certified as an expert in DNA. Ms. Conway should
testify that she discovered DNA evidence or that she
did not. Moreover, she can testify that there were other
males’ DNA present but the Defendant’s DNA was
excluded from being present on her clothing or person.
According to Federal Rule 702, the government has
failed to establish that Y-STR typing is based on
sufficient data and methods. It has also failed to prove
it is the product of reliable principles and methods. The
government has also failed to prove that the expert
witness will apply the principles and methods reliably
to the facts in this case.
According to Federal Rule 702, the Government has
failed to establish that trace evidence is based on
sufficient evidence dates and methods. It has also
failed to prove that it is the product of reliable
principles and methods. Moreover, the Government has
not shown how they intend to apply the principles of
trace evidence reliably to the facts in this case.
According to Federal Rule 703, inferences based on
Y-STR typing and on trace evidence have not been
proven reliable. The Government has also not shown
how either of these theories apply to the facts in this
case. It would be substantially more prejudicial than
probative if Ms. Conway is allowed to testify to these
theories. Ms. Conway’s testimony should be limited and

App. 59
exclude any testimony regarding Y-STR or trace
evidence.
According to Rule 705, the expert may state an
opinion without disclosing the underlying facts. This is
unless the court orders otherwise.
All that has been disclosed thus far is DNA results
that specifically exclude the Defendant. There has been
no other evidence or data to suggest Y-STR typing nor
has there been any data to suggest trace evidence.
III.

ARGUMENT

Ms. Conway can testify to the facts that were
discovered. The Defendant’s DNA was not found on the
victim’s clothing or person. The Defendant’s semen was
not detected in the victim’s underwear. Two other male
DNA was detected in the outside crotch of the victim’s
underwear. The Defendant is excluded as a potential
contributor to any male DNA present.
Defendant objects to any polymerase chain reaction
(PCR) as performed. The DNA in this case excluded the
Defendant’s male DNA. The other male DNA was
extremely diluted. It was not even eligible into the
Combined DNA Index System (CODIS).
It is unreliable to suggest that a parental lineage
consists those whom the same Y chromosome has been
transmitted from a common ancestor based on samples
that were diluted. They could not be used as a sample
for CODIS. It is substantially more prejudicial than
probative to use diluted sample as a factual basis to
create an inference from, of any sort.

App. 60
It is also unreliable to suggest that there is a basis
to show trace evidence. There was no DNA evidence
discovered that was the Defendant’s on the victim’s
person or her clothing.
Defendant requests that the expert not be allowed
to testify to an opinion. Furthermore, that the expert
disclose any facts, data underlying the theories, how
they relate to the facts in this case and reasons she
believes that said facts relate.
IV.

CONCLUSION

WHEREFORE, the Defendant respectfully
requests the Court to issue a pretrial ruling that the
Court limits the expert witness, Jerrilyn Conway’s
testimony to what she has discovered and to her
discipline only. Defendant further requests that she be
limited from making any assumptions or proffering
testimony on the DNA polymerase chain reaction and
the Y-STR profiles.
Respectfully submitted,
/s/ W. Shane Jennings
W. Shane Jennings
Law Office of W. Shane Jennings
P.O. Box 13808
Las Cruces, NM 88013
Tel: 575-308-0308
Fax: 575-308-0304
federalnotice@wshanejennings.com

App. 61
[Certificate of Service Omitted
for Purposes of this Appendix]
*

*

*

*

App. 62

APPENDIX G
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
Case No. 2:18-cr-02311-KG
[Filed: December 2, 2018]
_______________________________________
UNITED STATES OF AMERICA,
)
)
Plaintiff,
)
)
vs.
)
)
FRANCISCO JAVIER PALILLERO, )
)
Defendant.
)
_______________________________________)
DEFENDANT’S NOTICE OF INTENT TO
INTRODUCE REBUTTAL EXPERT
TESTIMONY PERTAINING TO SEROLOGY
AND DNA EVIDENCE PURSUANT TO RULES
702, 703 and 705
COMES NOW, Defendant, by and through his
counsel W. Shane Jennings, pursuant to Rule
16(a)(1)(G), and discloses its expert witness and the
type of testimony it intends to introduce under Rules
702, 703 and 705 of the Federal Rules of Evidence, and
in response to the Government’s disclosure and Notice
of Intent to Introduce Expert Witness Testimony

App. 63
Pertaining to Serology and DNA Evidence Pursuant to
Rules 702, 703 and 705 [DOC 59], as follows:
DNA / SEROLOGY / TRACE EVIDENCE
At the trial of this case, the Defendant intends to
call Michael J. Spence, Ph.D., of Spence Forensic
Resources, to offer rebuttal testimony to the
Government’s expert witness Jerrilyn Conway. Dr.
Spence’s testimony may include his expert opinions or
specialized knowledge regarding this matter and the
discovery disclosed to date, derived from his education,
training, and professional experience in forensic
biology/DNA examination. Mr. Spence has testified as
an expert in the area of forensic biology/DNA
examinations on numerous occasions. The Defendant
anticipates that Mr. Spence will provide rebuttal
testimony regarding FBI policies and procedure
relating to serological and DNA examination and their
application to the examination in this case. It is
anticipated that Mr. Spence will testify in rebuttal to
the methods of DNA analysis including Y short tandem
repeat and autosomal genotyping in addition to
rebuttal testimony about the transfer of DNA,
including by touch.
It is further anticipated that rebuttal expert, Mr.
Spence, will offer rebuttal testimony regarding the
topics outlined in the Government’s Notice of Intent to
Introduce Expert Witness [DOC 59] as follows:
“The DNA Casework Unit examined an array
of items seized as evidence in this case and
subjected those items to serology or DNA
analysis. Among other things, Ms. Conway will

App. 64
testify that the victim’s DNA was present on a
number of swabs taken from the victim’s body
and the victim’s clothing, and the Defendant’s
DNA cannot be included on any of these items.
Two mons pubis/outer labia majora swabs
and two oral swabs from the victim were tested
for the presence of semen; however none was
detected. Additionally, only female DNA,
consistent with the victim, was present on these
items. Swabs from the victim’s cheeks and
around her mouth, left hip, and left arm showed
no DNA typing results unlike the victim.
Swabs from the fingers and knuckles of the
victim showed both female and male DNA. The
Defendant’s DNA was excluded as a potential
contributor.
The victim’s underwear was examined for the
presence of semen; however none was detected.
The Y-STR typing results for the outside crotch
of the victim’s underwear indicate the presence
of DNA from two or more males. Because these
mixture results cannot be attributed to
individual contributors, they are not suitable for
matching purposes; however, they may be used
for exclusionary purposes. Based on the Y-STR
typing results, no comparison information for
the outside crotch of the victim’s underwear can
be provided for Defendant, thus the Defendant
cannot be included or excluded as a potential
contributor.

App. 65
A mixture of male and female DNA was
obtained from the inside crotch of the victim’s
underwear. No autosomal DNA typing results
unlike the victim’s were obtained from the inside
crotch of the victim’s underwear. The Y-STR
typing results for the inside crotch of the victim’s
underwear indicate the Defendant is excluded as
a potential contributor to the male DNA present.
The low quantity of male DNA present on the
victim’s underwear could be consistent with
touch DNA or DNA remaining from a previous
sexual encounter after the underwear were
subjected to washing in a washing machine.
The DNA results obtained from the tested
items are not eligible for entry into the
Combined DNA Index System (CODIS).
DNA typing using the polymerase chain
reaction (PCR) was performed with the
GlobalFiler™ and/or AmpFlSTR® Yfiler™ PCR
Amplification Kits. The Y-STR loci are located
on the male Y-chromosome and are transmitted
through a paternal lineage from father to son.
Barring mutation, all males in the same
paternal lineage have the same Y-STR typing
results. A paternal lineage consists of those male
relatives to whom the same Y-chromosome has
been transmitted from a common ancestor.
Because the FBI Laboratory is continuing to
evaluate statistical approaches for calculating
the rarity of mixed Y-STR profiles, it only
provides inclusionary and statistical conclusions

App. 66
for distinguishable individual contributors in
Y-STR mixtures.”
This disclosure sets forth all the opinions of the
expert and described the reasons and basis supporting
his opinions.
CONCLUSION
WHEREFORE, the Defendant respectfully
requests that this Honorable Court allow the above
described rebuttal testimony of witness Michael J.
Spence, Ph.D., to be offered in the Defendant’s case at
trial in this matter and that the Court find that the
proposed rebuttal testimony by this witness has a
“reliable basis in the knowledge and experience” in his
identified discipline and is therefore admissible.
Respectfully submitted,
/s/ William S. Jennings
W. Shane Jennings
Law Office of W. Shane Jennings
P.O. Box 13808
Las Cruces, NM 88013
Tel: 575-308-0308
Fax: 575-308-0304
shane@wshanejennings.com
[Certificate of Service Omitted
for Purposes of this Appendix]
*

*

*

*

App. 67

APPENDIX H
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
Case No. 2:18-cr-02311-KG
[Filed: December 4, 2018]
_______________________________________
UNITED STATES OF AMERICA,
)
)
Plaintiff,
)
)
vs.
)
)
FRANCISCO JAVIER PALILLERO, )
)
Defendant.
)
_______________________________________)
DEFENDANT’S RENEWED NOTICE OF
INTENT TO INTRODUCE REBUTTAL EXPERT
TESTIMONY PERTAINING TO SEROLOGY
AND DNA EVIDENCE PURSUANT TO RULES
702, 703 and 705
COMES NOW, Defendant, by and through his
counsel W. Shane Jennings, pursuant to Rule
16(a)(1)(G), and discloses its expert witness and the
type of testimony it intends to introduce under Rules
702, 703 and 705 of the Federal Rules of Evidence, and
in response to the Government’s disclosure and Notice
of Intent to Introduce Expert Witness Testimony

App. 68
Pertaining to Serology and DNA Evidence Pursuant to
Rules 702, 703 and 705 [DOC 59], as follows:
TIME LINE
On November 7, 2018, the Federal Court
established that all motions were to be filed by
November 14, 2018 and any responses are due by
November 28, 2018.
On November 19, 2018, the government filed a
Notice of Intent to Introduce Expert Witness pertaining
to Serelogy and DNA evidence pursuant to Rule 702,
703 and 705. This was in violation of the court order.
On November 30, 2018, the court stated that if the
Defense could find a DNA Expert he or she could
testify.
On December 3, 2018, Defense counsel produced an
expert. Defense counsel also has a summary of the
expert’s intent to testify. Exhibit 1. The court originally
stated that the defense expert could testify. However,
the court then changed its decision and denied defense
counsel’s motion to introduce expert witness testimony
of Michal J. Spence, Ph.D for rebuttal testimony.
Defense counsel requests that the court reconsider this
decision.
DNA / SEROLOGY / TRACE EVIDENCE
At the trial of this case, the Defendant intends to
call Michael J. Spence, Ph.D., of Spence Forensic
Resources, to offer rebuttal testimony to the
Government’s expert witness Jerrilyn Conway. Dr.
Spence’s testimony may include his expert opinions or

App. 69
specialized knowledge regarding this matter and the
discovery disclosed to date, derived from his education,
training, and professional experience in forensic
biology/DNA examination. Mr. Spence has testified as
an expert in the area of forensic biology/DNA
examinations on numerous occasions. The Defendant
anticipates that Mr. Spence will provide rebuttal
testimony regarding FBI policies and procedure
relating to serological and DNA examination and their
application to the examination in this case. It is
anticipated that Mr. Spence will testify in rebuttal to
the methods of DNA analysis including Y short tandem
repeat and autosomal genotyping in addition to
rebuttal testimony about the transfer of DNA,
including by touch.
It is further anticipated that rebuttal expert, Mr.
Spence will offer rebuttal testimony regarding the
topics outlined in the Government’s Notice of Intent to
Introduce Expert Witness [DOC 59] as follows:
“The DNA Casework Unit examined an array
of items seized as evidence in this case and
subjected those items to serology or DNA
analysis. Among other things, Ms. Conway will
testify that the victim’s DNA was present on a
number of swabs taken from the victim’s body
and the victim’s clothing, and the Defendant’s
DNA cannot be included on any of these items.
Two mons pubis/outer labia majora swabs
and two oral swabs from the victim were tested
for the presence of semen; however none was
detected. Additionally, only female DNA,
consistent with the victim, was present on these

App. 70
items. Swabs from the victim’s cheeks and
around her mouth, left hip, and left arm showed
no DNA typing results unlike the victim.
Swabs from the fingers and knuckles of the
victim showed both female and male DNA. The
Defendant’s DNA was excluded as a potential
contributor.
The victim’s underwear was examined for the
presence of semen; however none was detected.
The Y-STR typing results for the outside crotch
of the victim’s underwear indicate the presence
of DNA from two or more males. Because these
mixture results cannot be attributed to
individual contributors, they are not suitable for
matching purposes; however, they may be used
for exclusionary purposes. Based on the Y-STR
typing results, no comparison information for
the outside crotch of the victim’s underwear can
be provided for Defendant, thus the Defendant
cannot be included or excluded as a potential
contributor.
A mixture of male and female DNA was
obtained from the inside crotch of the victim’s
underwear. No autosomal DNA typing results
unlike the victim’s were obtained from the inside
crotch of the victim’s underwear. The Y-STR
typing results for the inside crotch of the victim’s
underwear indicate the Defendant is excluded as
a potential contributor to the male DNA present.
The low quantity of male DNA present on the
victim’s underwear could be consistent with

App. 71
touch DNA or DNA remaining from a previous
sexual encounter after the underwear were
subjected to washing in a washing machine.
The DNA results obtained from the tested
items are not eligible for entry into the
Combined DNA Index System (CODIS).
DNA typing using the polymerase chain
reaction (PCR) was performed with the
GlobalFiler™ and/or AmpFlSTR® Yfiler™ PCR
Amplification Kits. The Y-STR loci are located
on the male Y-chromosome and are transmitted
through a paternal lineage from father to son.
Barring mutation, all males in the same
paternal lineage have the same Y-STR typing
results. A paternal lineage consists of those male
relatives to whom the same Y-chromosome has
been transmitted from a common ancestor.
Because the FBI Laboratory is continuing to
evaluate statistical approaches for calculating
the rarity of mixed Y-STR profiles, it only
provides inclusionary and statistical conclusions
for distinguishable individual contributors in
Y-STR mixtures.”
This disclosure sets forth all the opinions of the
expert and described the reasons and basis supporting
his opinions.
CONCLUSION
WHEREFORE, the Defendant respectfully
requests that this Honorable Court reconsider its
decision and allow the above described rebuttal
testimony of witness Michael J. Spence, Ph.D., to be

App. 72
offered in the Defendant’s case at trial in this matter
and that the Court find that the proposed rebuttal
testimony by this witness has a “reliable basis in the
knowledge and experience” in his identified discipline
and is therefore admissible.
Respectfully submitted,
/s/ William S. Jennings
W. Shane Jennings
Law Office of W. Shane Jennings
P.O. Box 13808
Las Cruces, NM 88013
Tel: 575-308-0308
Fax: 575-308-0304
shane@wshanejennings.com
[Certificate of Service Omitted
for Purposes of this Appendix]
*

*

*

*

App. 73

APPENDIX I
[Filed: December 4, 2018]
Michael J. Spence, Ph.D.
2455 E. Missouri Ave., Suite A
Las Cruces, NM 88001
Tel: 575-640-2360
E-mail: mike@spenceforensics.com
Summary: Motion of Intent for Defense Expert
to Testify: U.S.A. v. Francisco Palillero
This case involves allegations of criminal sexual abuse,
from an incident occurring on Holloman Air Base,
located near Alamogordo, New Mexico. The alleged
victim will be referred to as ‘AN’. This adult female
reported to investigating officers that she was sound
asleep in her bed at about 2:10 a.m., on April 28, 2018.
At that time, AN was wearing a t-shirt and a pair of
panties. She believed that during the following several
minutes, a person repeatedly entered her bedroom and
touched her inappropriately. This included the
following: kissing her lips/cheek area, touching her
hand, touching her breasts through her t-shirt, and
touching her buttocks area. AN alleged that,
eventually, this person used one hand to forcibly reach
into her panties, made contact with her genital area,
and used fingers to penetrate her vagina. AN stated
that she was convinced that this person was Mr.
Francisco Palillero. Consequently, she shoved him
away. When Mr. Palillero denied these allegations to

App. 74
others, AN ran out of the bedroom and attacked him.
This caused both Mr. Palillero and AN to fall into some
boxes located in the hallway of the residence.
AN arrived at the Otero-Lincoln County SANE Clinic
at about 11:45 a.m. on April 28, 2018. A Sexual Assault
Nurse Examination (SANE) was conducted shortly
thereafter. This was about 9½ hours after the alleged
incident. After the incident—but prior to the SANE
exam—AN reportedly urinated, used a tampon,
vomited, smoked, ate, and drank.
The Federal Bureau of Investigation (FBI) Laboratory
released two forensic biology/DNA lab reports. These
reports were dated September 21, 2018 and November
1, 2018. Eight evidence items were subjected to
examinations. Known reference standards were
collected from AN, and from Mr. Francisco Palillero.
DNA typing results from these two individuals allowed
comparisons to the DNA from the various evidence
items. Summarized below are the results from tests for
body fluids, as well as DNA comparisons between the
two known standards and specific evidence items:
Item 1: Two mons pubis/outer labia majora swabs from
AN. There was no indication of seminal material or
sperm cells on these swabs. DNA Results: Autosomal
(STR) DNA testing of Item 1 failed to indicate the
presence of any genetic material other than the
expected DNA from AN. No indication of male DNA
was observed, and no YSTR typing was attempted.
Item 2: Two oral swabs from AN. There was no
indication of seminal material or sperm cells on these
swabs. DNA Results: Autosomal (STR) DNA testing of

App. 75
Item 2 failed to indicate the presence of any genetic
material other than the expected DNA from AN. No
indication of male DNA was observed, and no YSTR
typing was attempted.
Item 3: Two swabs from cheeks and around the mouth
area from AN.
DNA Results: Autosomal (STR) DNA testing of Item
3 failed to indicate the presence of any genetic material
other than the expected DNA from AN. No indication
of male DNA was observed, and no YSTR typing was
attempted.
Item 4: Two swabs from left hip area from AN.
DNA Results: Autosomal (STR) DNA testing of Item
4 failed to indicate the presence of any genetic material
other than the expected DNA from AN. No indication
of male DNA was observed, and no YSTR typing was
attempted.
Item 5: Two swabs from the left arm area from AN.
DNA Results: Autosomal (STR) DNA testing of Item
5 failed to indicate the presence of any genetic material
other than the expected DNA from AN. No indication
of male DNA was observed, and no YSTR typing was
attempted.
Item 6: Two swabs from fingers and knuckles from AN.
DNA Results: Autosomal (STR) DNA testing of Item
6 revealed both male and female DNA. The FBI report
stated as follows: “Interpretation of item 6 was
performed assuming that the DNA originated
from two individuals, one of whom is AN.
PALILLERO is excluded as a potential
contributor to item 6.”

App. 76
Item 8(1): Sample from the outside crotch area of
underwear collected from AN. There was no indication
of seminal material or sperm cells on this item.
DNA Results: Total DNA estimated at 39.8
nanograms (ng). Male DNA was estimated at 0.15
ng, or 0.37% of the total DNA. Although a mixture of
male and female DNA was reported from Item 8(1),
the autosomal (STR) analysis of this item failed to
indicate the presence of any genetic material other
than the expected DNA from AN. According to the FBI
Crime Lab report: “The Y-STR typing results for
item 8(1) indicate the presence of DNA from two
or more males. Because these mixture results
cannot be attributed to individual contributors,
they are not suitable for matching purposes;
however, they may be used for exclusionary
purposes. Based on the Y-STR typing results, no
comparison information for item 8(1) can be
provided for PALILLERO.” In more simplified
terms: DNA from at least two males was present here
on this area of the underwear. However, there is no
scientifically reliable indication of DNA from Mr.
Palillero.
Item 8(2): Sample from the inside crotch area of
underwear collected from AN. There was no indication
of seminal material or sperm cells on this item.
DNA Results: Total DNA estimated at 73.1 ng. Male
DNA was estimated at 0.145 ng, or 0.2% of the total
DNA. Although a mixture of male and female DNA was
reported from Item 8(2), the autosomal (STR) analysis
of this item failed to indicate the presence of any
genetic material other than the expected DNA from
AN. According to the FBI Crime Lab report: “Based on

App. 77
the Y-STR typing results, PALILLERO is excluded
as a potential contributor to the male DNA
obtained from item 8(2).”
Conclusions: The forensic biology/DNA results from
these eight evidence items provide no scientific support
for the allegations associated with this case
investigation.
Michael J. Spence, Ph.D.

12/03/18

